<html>
<title> - EXPANDING AND IMPROVING OPPORTUNITIES TO VOTE BY MAIL OR ABSENTEE (continued)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
   EXPANDING AND IMPROVING OPPORTUNITIES TO VOTE BY MAIL OR ABSENTEE 
                              (continued)
=======================================================================


                                HEARING

                               before the

                       SUBCOMMITTEE ON ELECTIONS

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                HELD IN WASHINGTON, DC, OCTOBER 22, 2007

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html



                     U.S. GOVERNMENT PRINTING OFFICE

40-618 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice-Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                William Plaster, Minority Staff Director
                                 ------                                

                       Subcommittee on Elections

                  ZOE LOFGREN, California, Chairwoman
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California           VERNON J. EHLERS, Michigan
ARTUR DAVIS, Alabama


   EXPANDING AND IMPROVING OPPORTUNITIES TO VOTE BY MAIL OR ABSENTEE

                              ----------                              


                        MONDAY, OCTOBER 22, 2007

                  House of Representatives,
                         Subcommittee on Elections,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 5:35 p.m., in 
room 1310, Longworth House Office Building, Hon. Zoe Lofgren 
(chairwoman of the subcommittee) presiding.
    Present: Representatives Lofgren, Gonzales, Davis of 
California, Ehlers, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Jennifer 
Daehn, Election Counsel; Matt Pinkus, Professional Staff 
Member/Parliamentarian; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Matthew DeFreitas, Staff 
Assistant; Fred Hay, Minority General Counsel; Gineen Beach, 
Minority Election Counsel; and Roman Buhler, Minority Election 
Counsel.
    The Chairwoman. The subcommittee will come to order.
    We will now receive testimony from our third panel of 
witnesses today. Our witnesses today are John Fortier and 
Warren Harrison.
    John Fortier is a research fellow at the American 
Enterprise Institute, where he writes and comments on Congress, 
the presidency and elections. He writes a weekly column on 
Congress and elections for The Hill newspaper of Capitol Hill. 
He is a participant in Election Watch, AEI's election analysis 
forum. He also serves as the principal contributor to the AEI-
Brookings Election Reform Project and is the executive director 
of the Continuity of Government Commission. Previously, he 
managed the AEI-Brookings Transition to Governing Project on 
presidential transitions.
    Next we have Warren T. ``Tom'' Harrison, who was the 
director of elections for five Secretaries of State, several as 
the executive director of the Texas Ethics Commission, from 
September 1995 to December 2002. Mr. Harrison currently serves 
as deputy director and general counsel of Texas County and 
District Retirement System.
    Your statements will be placed in the record in their 
entirety, and our procedure is to ask that you summarize your 
written statement in 5 minutes. When your 5 minutes is up, the 
red light will flash. And it gives you a warning sign of yellow 
when you have 1 minute to go, and when that happens, we would 
ask that you conclude your statement. And then, after both of 
you have concluded your written statements, we will go to 
members with questions.
    So if we can begin with you, Mr. Fortier. Welcome.

     STATEMENTS OF JOHN FORTIER, RESEARCH FELLOW, AMERICAN 
ENTERPRISE INSTITUTE; TOM HARRISON, DEPUTY DIRECTOR AND GENERAL 
      COUNSEL, TEXAS COUNTY AND DISTRICT RETIREMENT SYSTEM

                   STATEMENT OF JOHN FORTIER

    Mr. Fortier. Thank you very much, Ms. Chairwoman. I am here 
today to talk about absentee voting more broadly and say a few 
things about the bill before you.
    Let me say something about the rise of voting before 
Election Day. It has been tremendous in the last 30 years. We 
used to have a situation where most States had 4 or 5 percent 
of their population out of town or, for some other reason, 
having to vote by absentee. And, in fact, in the 2004 election, 
we saw nearly a quarter of Americans vote before Election Day. 
That was either by mail or at voting stations or polling places 
that opened early, before Election Day. So it certainly is a 
trend that is worth following and worth this committee's 
attention.
    Absentee ballots are also absolutely necessary for some 
parts of the population. There are people who cannot get to 
polling places, whether they are overseas voters or people who 
are sick or bed-ridden or out of town on business. But, in many 
ways, absentee balloting is inferior to voting at polling 
places. And I list a few reasons.
    One, the protections of the polling place that are there to 
protect the privacy of the vote do not travel with the absentee 
ballot. When an absentee ballot is sent out to you, there is 
the possibility of coercion from your spouse, from your 
employer, from your union, from your religious affiliation. If 
you are pressured by someone and you go to a polling place, you 
can thumb your nose at them and vote however you want when you 
pull the curtain. But when you have an absentee ballot, we 
don't know what pressures you have. So that is a concern of 
absentee balloting that was a concern for those who instituted 
absentee balloting a hundred years ago.
    Second is fraud. Fraud is a very difficult issue to 
discuss. There are lots of different opportunities for fraud. 
It is hard to measure. But certainly with absentee balloting, 
there are some additional opportunities for fraud. There have 
been certain cases of interception in the mail and people 
filling out ballots for those who--not their own ballots, but 
other people's ballots. Again, academic research has not been 
able to measure this. It is hard to know how much of that goes 
on. But certainly there are some additional opportunities.
    A couple of other issues I will raise about absentee 
balloting which are less certain. There are certainly people 
who worry about the error rates of absentee balloting. And 
there is some varied initial academic research on this, but 
really not a strong body one way or the other. And the worry is 
that some of the checks that we put into the polling places, 
the checks that prevent people from overvoting or undervoting, 
are not there for absentee balloting and that we may find that 
there will be more ballots spoiled by voters who vote absentee. 
And, with that, we certainly need more research, but it is a 
possibility.
    And finally, absentee balloting lengthens the voting period 
significantly. And while you might vote a month or 6 months or 
weeks before an election, you might find that there is a 
development in the election or that there are important debates 
that you missed as a voter, and we worry about too long a 
voting period. Certainly absentee balloting has those 
difficulties.
    Quickly, there are a couple of stated benefits. One is 
convenience, and I think absentee balloting clearly is a 
convenience and clearly is----
    The Chairwoman. Could you press the button on your mike? I 
am having no trouble hearing you, but apparently it may not be 
picking up.
    Mr. Fortier. That will do it.
    In terms of convenience, absentee balloting is convenient, 
and surveys have shown--surveys in Oregon, where they vote all 
by mail--that people like this convenience very much.
    I will say also that there are other convenience voting 
methods--voting at polling places early, voting at election 
super-centers that they do in Colorado--which have also shown 
to be popular. So it is not the only popular convenience 
method.
    And then, finally, the big question about turnout. I think 
the academic research does not show a significant increase in 
turnout or really even a statistically significant increase in 
turnout. There is a vast body of research. There are some 
studies that will show a small increase in turnout, but overall 
the evidence is that absentee balloting, while it is more 
convenient and removes obstacles, does not increase turnout.
    The exception is in small, local-turnout elections where a 
vote-by-mail election in a referendum or a local mayors race in 
a small town might increase turnout. But, in a Federal or 
congressional race, it will not.
    I am running out of time, but briefly I will say, if I were 
looking to you as State legislators, if you were here in a 
State, I would warn you about expanding absentee balloting too 
much because of some of the reasons I put forward. And, also, I 
would recommend to you other options. Certainly, many States 
have moved toward early voting at polling places, which have 
the protections of the polling place. And I mentioned also 
these super-centers or vote centers that Colorado has, which 
some of the research has shown that there is some increase in 
turnout.
    And, finally, I would say, as members of Congress, there is 
such a great of variety of practice out in the States that I 
would be careful about making the decision for the States, 
whether a State is going to choose to be an early-voting State 
at the polling place, whether it is going to be an absentee-
voting State. That is better left to the people in that State 
than Congress jumping in and making that decision for them.
    I will leave that here and take questions from you later.
    [The statement of Mr. Fortier follows:]
    [GRAPHIC] [TIFF OMITTED] 40618A.001
    
    [GRAPHIC] [TIFF OMITTED] 40618A.002
    
    [GRAPHIC] [TIFF OMITTED] 40618A.003
    
    [GRAPHIC] [TIFF OMITTED] 40618A.004
    
    [GRAPHIC] [TIFF OMITTED] 40618A.005
    
    [GRAPHIC] [TIFF OMITTED] 40618A.006
    
    [GRAPHIC] [TIFF OMITTED] 40618A.007
    
    [GRAPHIC] [TIFF OMITTED] 40618A.008
    
    [GRAPHIC] [TIFF OMITTED] 40618A.009
    
    [GRAPHIC] [TIFF OMITTED] 40618A.010
    
    [GRAPHIC] [TIFF OMITTED] 40618A.011
    
    The Chairwoman. Thank you very much, Mr. Fortier.
    And now we would welcome your testimony, Mr. Harrison.

                  STATEMENT OF WARREN HARRISON

    Mr. Harrison. Thank you, Madam Chair and members.
    First of all, let me give the usual lawyer disclaimer. I 
don't work for the State of Texas anymore. And so, none of my 
comments are on behalf of the State of Texas. Any comments I 
make today are my own, based on my experiences when I did work 
there.
    As I said in my statement, I came to work in the Secretary 
of State's office in the election division in 1987. I became 
the director of elections in 1988 and was there until 1995, 
when I moved over to another job in State government. I was 
very involved obviously in the elections process. I was also 
the founding director of a national group called the National 
Association of State Election Directors.
    Prior to 1987, Texas had--we had what we called ``two 
absentee''; we had absentee voting by personal appearance, and 
we had absentee voting by mail. And in personal appearance, you 
would go to the polling place, and if you were to vote 
absentee, you would have to sign an affidavit stating one of 
the reasons under the statute that you wouldn't be able to vote 
on Election Day.
    At that time, I was practicing law in Harris County, which 
is Houston, and myself and a lot of judges, a lot of other 
lawyers stood in line and said we weren't going to be in the 
county on Election Day and voted absentee, although, quite 
honestly, we didn't know at the time if we would be in the 
county or not. But our dockets and our trials were such that we 
voted absentee.
    In 1987, then-State Senator, now-Congressman Chet Edwards 
came up with a bill to change absentee voting by personal 
appearance and did so. And the legislature, in its wisdom, 
deleted all of the excuses that were needed to vote absentee by 
personal appearance. Again, it didn't impact the mail voting, 
just absentee by personal appearance. So after that point in 
time, you just had to go in and vote. You didn't have to sign 
an affidavit or anything. You just showed up to vote in what we 
now call ``early.''
    In 1987, like in almost every odd-numbered year since the 
late 1800s, Texas held a constitutional amendment election on 
our State constitution, and we thought the turnout was going to 
be just tremendous because of this new, easy way to vote. And 
unfortunately, that didn't happen.
    So we had elections, obviously, in 1988, 1989, and 1990. 
Some of the larger counties, especially, wanted to put these 
absentee-by-personal-appearance voting places in periods of 
high pedestrian traffic. But the law really didn't allow that 
because they said they all had to be open the same days and the 
same hours as the main location, which is the county 
courthouse. So, in 1991, the legislature again changed the law 
to say the Commissioners Court could establish branches that 
could be open on different hours and different days than the 
main polling place during absentee voting, and also changed all 
references to ``absentee voting by personal appearance'' to 
``early voting.'' So, since that time, we have called it 
``early voting'' in Texas.
    After the changes in 1991, there were two types of early 
voting or absentee by personal appearance that became 
prevalent. One was mobile voting, which I used to tell people 
was not driving around with a voting machine in the back of a 
pickup truck, but it would take one location and say that 
people could vote at this location, these hours, on this day, 
and move it again the next day.
    That has worked very well, I can say, in Travis County, 
where the capital is located and where I live. Because of State 
government, the county clerk one day will have an early-voting 
polling place in one particular State building, all the 
employees get to vote, and then it will move to another.
    We were concerned at the time about, if you can imagine, 
politics coming into effect and that someone just may stick 
these in a particular area where they wanted their voters, so 
to speak, to turn out. So we made sure that it had to be 
distributed properly and that proper notice was given to the 
voters.
    The other thing that became prevalent was what we came to 
call retail voting, where they would use malls or grocery 
stores to hold early voting. In the last several years, I have 
voted in my local Randalls grocery store, where they have a 
polling place during every election. When I go back to Austin 
tomorrow, our early voting has begun for our next 
constitutional amendment election. I probably will go vote 
early tomorrow at that polling place. The voters love it; it is 
extremely convenient.
    You know, we think that, ``How could anybody not vote in 
Texas, because we made it so convenient,'' but they don't vote. 
As John said, turnout has not increased. We thought for sure 
this would increase turnout, and it didn't. All that has 
happened is that people that used to vote on Election Day now 
vote during this early period. So it hasn't increased turnout.
    I don't have a lot of time to talk about mail voting. I am 
not a big proponent of mail voting because of the fraud that we 
have had in Texas in the past. And I am not exactly sure how to 
cure that. I know the legislature has tried with some 
signatures. But when I was director of elections, I know we 
tried several criminal cases that the Texas Rangers 
investigated for fraud in the mail-voting process.
    Thank you very much.
    [The statement of Mr. Harrison follows:]
    [GRAPHIC] [TIFF OMITTED] 40618A.012
    
    [GRAPHIC] [TIFF OMITTED] 40618A.013
    
    The Chairwoman. I thank you both.
    We will now move to questions. And since this is the 
minority's witnesses, I would like first to, out of courtesy, 
recognize the ranking member, Mr. McCarthy, for his 5 minutes 
of questions.
    Mr. McCarthy. Well, I appreciate that, Madam Chair.
    And I first would like to go to Mr. Harrison, the former 
elections director for the State of Texas.
    You briefly stated about the fraud when it came to mail 
voting. Could you elaborate on that, on some of the fraud that 
you have found in Texas when it comes to absentee mail voting?
    Mr. Harrison. We used to have what came to be known as, and 
sounds like a sexist remark, but bag ladies. What these ladies 
would do would be--and especially in the small city elections, 
they would go around and collect the ballots, especially from 
the elderly, the mail ballots, and then vote them and mail them 
in.
    I have sat in many an early ballot board, back when I was 
director of elections, where they would compare signatures, 
and, you know, the signatures that had to be compared were even 
obvious to the human eye that it wasn't the same signature, and 
they would throw the ballots out. I remember one particular 
election in a little town called Bay City where they threw out 
640 ballots because the signatures weren't the same.
    And a lot of other cases where they would go in and someone 
would say they were going to assist--and, again, usually it was 
the elderly; sometimes it would happen in nursing homes--assist 
them in their balloting. But when the investigators would go 
back and talk with the voter, they never really marked the 
ballot. They told the individual, ``I want to vote for X,'' but 
they never really knew whether that person voted for X or not.
    I mean, that is the problem with mail balloting, is----
    Mr. McCarthy. And you had the intimidation of the person 
not being----
    Mr. Harrison. Yes, sir.
    Mr. McCarthy. To Mr. Fortier, the signature gathering--an 
interesting thing; unfortunately you weren't invited to the 
other panel hearing that we had, but in there we had a 
Secretary of State from Maine. And I was asking her the 
question about signatures, verifying them. Her answer to me 
was, ``We don't ask for signatures in Maine. We know 
everyone.''
    Now, I have concern--because, in California, they have what 
they call bounty, where both parties go out and hire people to 
sit at a shopping center and get voter registrations. If 
someone takes the ballot and fraudulently fills it out and 
signs it, couldn't they apply for an absentee and, at the same 
time, still vote and it be counted because the signatures would 
match?
    Mr. Fortier. I think the signature-checking procedures vary 
greatly from State to State. I have indicated that I am not a 
big fan of vote by mail. But Oregon, which is 100 percent vote 
by mail, actually has a system of checking every signature, to 
their credit. Many States do not, or have less serious 
procedures. There is training and some seriousness of purpose 
in Oregon.
    So I guess I do worry that, in many places, there is this 
requirement that is something of a formality, and it is not 
followed through on as thoroughly as it might be.
    Mr. McCarthy. I read in your bio that you had academically 
studied about elections and voting and patterns. Voting in 
person or voting by mail, which one brings about the greatest 
form of fraud, when there is fraud?
    Mr. Fortier. I think it is very difficult to measure fraud. 
What I like to say is I believe there are additional 
opportunities for fraud in voting by mail. Certainly, you could 
find, in every stage of the process, ways in which people would 
like to get at our elections, and we would be wise to protect 
against them in all forms. But, certainly, when a ballot leaves 
the polling place, there is no one to watch over it. There are 
no--we don't have both parties, representatives from both 
parties, there to raise objections to certain things that might 
be done with the ballot, like we do at the polling place.
    What I didn't discuss in my testimony--and I have a book on 
absentee and early voting--is some of the early history of 
absentee voting. It especially came about in the era after we 
put in the secret ballots. And those who put in the secret 
ballots did so to combat a lot of corruption and big-city 
machines. And that memory was still there for the people who 
instituted absentee balloting. They wanted to preserve some 
amount of privacy, with the witness requirements and the 
signature requirements and the stating a reason. That was all 
coming out of the idea that we cared about the privacy of the 
ballot, as well as giving those people who needed absentee 
ballots the absentee ballot that they needed to vote.
    Mr. McCarthy. But you still believe in allowing choice, 
like early voting in person, because you get the privacy to go 
in and you don't have the intimidation, and even maybe the 
intimidation around a kitchen table or not to vote with your 
spouse, even though you disagree with your spouse.
    Mr. Fortier. I would like to separate fraud and coercion. 
There may be a gray line in between. But, certainly, we are 
protected from coercion at the polling place because, no matter 
what the pressures, if we go in and secretly cast our ballot, 
then we can do what we like. With an absentee ballot, it is not 
always clear that a voter can do that. Either subtly pressured 
or overtly pressure, somebody might see that ballot and say, 
``Look, you filled it out right,'' or, ``You haven't filled it 
out right.''
    Mr. McCarthy. Thank you very much.
    I yield back.
    The Chairwoman. Does the gentleman from Texas have 
questions?
    Mr. Gonzalez. I just have a real quick one for Mr. Fortier.
    You indicated that there is no empirical evidence, there is 
no evidence that the easier you make it to vote, such as mail-
in ballots in Oregon, results in increased voter participation. 
If you could elaborate on that?
    Mr. Fortier. Yes. I think the theory is, if you remove the 
obstacles, they will come and they will vote. And we have tried 
that in a number of areas, and it has not always worked out 
that way.
    I will say that both, as Mr. Harrison indicated, in voting 
early at polling places but also voting by mail, either the 
Oregon system or States that have expanded their absentee 
balloting, we have not seen--a number of studies really have 
not seen a significant increase in voting.
    But the exception is this: in the very low turnout 
elections. Essentially, what we do is we move voters around. We 
find voters who are habitual voters who are going to vote, 
whether they have to go to the polling place or whether they 
are choosing to mail in their ballot or they are going to an 
early place, they tend to vote in roughly the same rates. These 
methods of early voting in polling places and absentee voters 
also do not increase--get new voters to the polling place.
    The only new method which I would recommend us looking at 
more, which Colorado has instituted, is these voting super-
centers where, on Election Day, they are well-situated; you can 
go to any one in your county. There has been some evidence that 
there is a rise in turnout and attraction of new voters.
    My main message is there are other convenience methods; we 
should look at them. And many States may choose to go a 
different route than absentee balloting, and we may not want to 
put that on them.
    Mr. Gonzalez. I was under the impression that no-excuse 
absentee voting--and, of course, Oregon is all mail--did result 
in some increase in Oregon. I mean, that would not be accurate?
    Mr. Fortier. Well, the problem is that you have in Oregon a 
State that was a high-percentage-voting State before they 
instituted vote by mail and has been a high-voting State after 
it instituted voting by mail. It is not clear we can attribute 
the high voting to the mail voting. It is broader; it has to do 
with the political culture.
    So there are some individual studies that show small 
amounts of increases. There are some studies that show 
decreases. There are some studies that show an essentially 
nonstatistical increase. But the general consensus among 
academics is that voting by mail and voting at polling places 
do not show increases in turnout, with the exception of that 
caveat I mentioned earlier, that the local elections that are 
going to have very low turnout, then you do get habitual voters 
willing to send in their mail ballots.
    Mr. Gonzalez. Thank you very much.
    I yield back.
    The Chairwoman. The gentleman yields back.
    The gentleman, Mr. Ehlers, is recognized for his 5 minutes.
    Mr. Ehlers. Thank you, Madam Chair.
    First of all, I would like to enter an opening statement 
into the record.
    The Chairwoman. Without objection, it will be entered into 
the record.
    [The statement of Mr. Ehlers follows:]
    [GRAPHIC] [TIFF OMITTED] 40618A.014
    
    [GRAPHIC] [TIFF OMITTED] 40618A.015
    
    Mr. Ehlers. I appreciate the testimony. Both of you have 
said essentially the same thing, that these various methods, 
which are ostensibly started out as a way to increase turnout, 
did not increase turnout, but they may have increased 
convenience. Am I summarizing it correctly?
    Okay. So there is no reason to set up these alternate 
methods for increasing turnout. There may be good reason to 
increase convenience. And that certainly is fine with me, as 
long as we can assure the sanctity of the ballot.
    And that has been my greatest concern. It stems from an 
incident we had a number of years ago on this committee, where 
I was put on one of the committees to examine a contested 
election. And we held a hearing in the community where the 
election took place. And it was astounding. You know, people 
were under oath, they had to tell the truth. It was astounding 
how much corruption we unveiled just in a 2-hour hearing. And 
that convinced me that there is still fraud alive and well in 
this country, although not everywhere, but certainly in certain 
places.
    And my concern about the early morning, if it is not done 
in a polling place or the voting by mail, any of these, is that 
it increases the opportunities for corruption, for fraud. It 
does not guarantee it, because every community is different, 
and in some communities the people tend to be very straight-
arrow on voting. Other communities are not. And you certainly 
increase the opportunity for fraud.
    Would you agree with that statement?
    Mr. Fortier. I do. I think fraud is a hard thing to measure 
overall.
    Mr. Ehlers. Right.
    Mr. Fortier. And we can all debate whether there is a lot 
of fraud, a little fraud, where it is. But I do think that 
there are some additional opportunities when the ballot leaves 
the protections of the polling place.
    Mr. Ehlers. Yeah. And that is the difficulty I have with 
it. The absentee ballot was instituted as a means of providing 
the opportunity to vote for people who cannot go to the actual 
voting place. And even though there is a chance of increased 
fraud there, I think it is fairly small. If you have citizens 
who are diligent about voting and want to vote even if they are 
out of town or ill, you are not likely to encounter much fraud.
    If you have early voting or other mechanisms, then you 
really open the door for fraud. And that is a big concern of 
mine, because I have seen it in action. And, of course, the 
history of our Nation is not without fraud, whether it is 
Tammany Hall or the Pendergast machine or the Daley machine 
that--I wouldn't accuse the present Mayor Daley of that, but I 
have heard enough stories about the previous mayor and various 
other parts of the country where fraud was rampant. It really 
opens the door.
    I am intrigued by your comments about voting convenience, 
which I think is a legitimate thing to do as long as it is 
supervised. And when you use that term, you are mostly 
referring to that, aren't you, the super-centers or locating it 
in stores or things like that, or allowing people to vote in 
places other than their normal voting place? That is all purely 
for convenience, correct? But you still have all the controls 
you would otherwise?
    Mr. Fortier. There are, in many of the early-voting 
centers, basic protections of the polling place that you would 
have on Election Day. The States do these in various ways, but 
I think a lot of them are worth looking at.
    And the numbers are so big, the increases are so big, in 
both absentee voting and in early voting at polling places, 
that I think there is a demand for convenience, especially in 
the Western States and a number of Pacific States, that we 
shouldn't look down at the idea of convenience. But I am for 
doing it in a way that keeps those protections of the polling 
place.
    So I am more open to doing some things on Election Day: 
longer polling hours; going toward super-centers, at least 
experimenting with them; and also some period of early voting. 
I prefer it not to be too long, because I have some concerns 
about a long, long election. But a week or 10 days of voting 
certainly does provide a convenience to people who would want 
to vote on those other days.
    So I think there are a lot of convenience things we can 
look at that are not absentee voting.
    Mr. Ehlers. I find it interesting that, in our Nation, we 
have States advocating early voting, mail-in voting, all these 
things which increase the probability of fraud, and we have 
other States passing voter ID bills, trying to decrease fraud.
    The Chairwoman. The gentleman's time has expired.
    Mr. Ehlers. Just one last comment. I really am very 
skeptical about this, and I hope we look at it very carefully 
before we do anything on it----
    The Chairwoman. The gentlelady from California is 
recognized.
    Mrs. Davis of California. Thank you, Madam Chair.
    And I appreciate your testimony.
    I wanted to go to one of the issues that you raised, Mr. 
Fortier, in your testimony. I don't think you raised it here in 
the same way. But the voting error rate, could you give me some 
sense of that?
    Because I think you were suggesting that it could be 
greater for absentees than for op scans. And I wonder what your 
take is on the election of Florida, where there were 18,000 
undervotes. Have you seen 18,000 undervotes ever in an 
absentee?
    Or, what we are told is that there are actually relatively 
few, and that, in fact, in that election, absentee undervotes 
were a pretty normal, average number. How can you explain that?
    Mr. Fortier. Well, what I try to say in my testimony is 
that I don't think we have enough information about this. And I 
do recommend, from whatever avenue, that there be a much more 
serious look at this.
    My main point is this, that there are--Congress has, in the 
Help America Vote Act, called for error-checking provisions 
that occur at the polling place, whether it is through DREs or 
Opti-Scan, where they warn you that you--they will prevent you 
from overvoting or they warn you that you have undervoted.
    Now, those mechanisms are not perfect, and we may have 
ballot design problems, other problems, which we should 
improve. But those protections, at least if put in place at the 
polling place, allow some voters to get their ballots counted 
that otherwise would not be counted.
    If you fill out an absentee ballot and you accidentally 
vote twice for president, because of ballot design or whatever, 
there is no way for you to come back and correct that error 
like there is at the polling place.
    So I cannot tell you that the error rate is higher or 
lower. But because of that opportunity, we have that concern. 
So I am for more research, but I cannot tell you today that 
there is research that says it is lower. It is a concern, not a 
finding.
    Mrs. Davis of California. Okay. I believe people actually 
can go to the registrar if they feel that they have done that, 
someone with an absentee vote, but----
    Mr. Fortier. But often they don't know. That is the thing. 
They do it, and they are unaware that they have voted twice or 
left a ballot--and then there is no way to check it.
    Mrs. Davis of California. Yes. Okay.
    I wanted, also, to just talk a little bit about the 
convenience issue. Because I am not sure--are you suggesting 
that, you know--I think you said convenience is okay, but we 
wouldn't want voters to vote too early or to, perhaps, vote 
leisurely at home so that they might, you know, not have the 
certain pressure that they have at the voting booth.
    Is that what you said? Or, could you define that----
    Mr. Fortier. I am actually for convenience in voting. I 
don't think we should look down at it at all. Some people say, 
``Well, it doesn't increase turnout, but it is convenient, and 
that is not enough.'' I think convenience is both important and 
it is also demanded by the public.
    My concern is that there are different ways to get at 
convenience. And whether that is improving Election Day by 
various methods or--I think early voting at polling places also 
provides a level of convenience and is popular in places like 
Texas. I prefer those because they have the protections of the 
polling place.
    What I said about the length of the election, I do fear 
that someone voting for 6 weeks before an election may miss out 
on important information; there may be developments. I think it 
strays away from a, kind of, concentrated period where we focus 
on the election. So I am for a shorter period, but I don't have 
a definite time--a week, 10 days. Absentee ballot, by 
definition, is coming out 45 days beforehand. That is my 
concern.
    Mrs. Davis of California. Yes. Thank you.
    And, Mr. Harrison, I appreciate--you were talking mostly 
about early voting, and I certainly would encourage all kinds 
of ways of doing that. I think that the difficulty is that you 
still need a number of people to be trained and responsible and 
taking care of those polling places, as well. And for a number 
of counties, they find that to be difficult. They have a tough 
time getting people on Election Day itself. And that is why 
many registrars across the country do acknowledge that, in 
fact, it does assist them greatly to have people to have that 
opportunity. So I----
    Mr. Harrison. Yes, maam.
    Mrs. Davis of California [continuing]. Certainly would want 
that to be clear, that this doesn't, in any way, say, ``This is 
better than that.'' If early voting can be held well in a 
county and in a State, that is a good thing, especially if it 
gives that people the ability to do that. But many people, that 
is not a reality for them. And, in fact, they find longer lines 
for early voting than they would during Election Day.
    Mr. Harrison. Definitely, they do.
    The Chairwoman. The gentlelady's time has expired.
    Mrs. Davis of California. Thank you.
    The Chairwoman. At this point, I would just like to make 
note that it was actually the Secretary of State of Vermont who 
was at our hearing last week, not Maine; and note that the 
names of these witnesses were not sent to us last week.
    And, with that, this hearing is adjourned, with thanks to 
the witnesses.
    [Whereupon, at 6:07 p.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
